LIMITED AUDIT OF THE FISCAL YEAR 2008
    FEDERAL MANAGERS’ FINANCIAL
     INTEGRITY ACT SECTION 2 AND
  SECTION 4 ASSURANCE STATEMENTS
  REPORT NUMBER: A080118/A/F/F09003
          NOVEMBER 14, 2008
The audit was performed in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. However, we did not perform an assessment of
the internal control structure over the Agency’s FMFIA evaluation and reporting
process. Accordingly, we do not express an opinion on the adequacy of the
basis used in the preparation of the assurance statements submitted by the RAs
and HSSOs.

RESULTS OF AUDIT

In reviewing management and system control weaknesses reported in the FMFIA
Section 2 and Section 4 Assurance Statement questionnaires from GSA senior
management, we noted that the Agency senior officials reported weaknesses in
the following areas: Budgetary Reporting, Systems Integration, and Accounting
for Accounts Payables and Receivables. PwC also identified budgetary reporting
weaknesses regarding Unfilled Customer Orders (UFCOs) and Undelivered
Orders (UDOs). In addition PwC identified system security weaknesses relating
to the following; segregation of duties, account management, and activity
monitoring.

Budgetary Reporting

The Chief Financial Officer (CFO) and the Deputy CFO identified budgetary
accounting as an area of concern in their Fiscal Year 2008 Assurance Statement
questionnaires. Also, during the FY 2008 Financial Statement Audit, PwC
reported a lack of effective controls over GSA’s accounting and business
processes designed to ensure its budgetary transactions are properly recorded,
processed, and summarized to permit the timely preparation of financial
statements.

Since FY 2004, PwC has reported significant deficiencies in the reporting of
budgetary accounts and balances. To address these deficiencies, the Office of
the CFO has issued policies to each GSA Service to address the need to
strengthen internal controls over budgetary reporting. As a result, both the Public
Buildings Service (PBS) and the Federal Acquisition Service (FAS) instituted
corrective action plans, to include: semi-annual reviews and certifications of
UDOs, Delivered Orders (DOs), and UFCOs, reconciliations of subsystems and
business systems to the general ledger; performing reviews of budgetary entries
at the transaction level, and monitoring regional financial performance quarterly.
Furthermore, both PBS and FAS instituted further reviews at the regional offices
and program levels, including providing necessary training nationwide. However,


                                          2
when these controls were tested during the FY 2008 Financial Statement Audit,
PwC determined that mitigating controls developed to ensure the accuracy and
validity of UDOs, DOs, and UFCOs were ineffective. Specifically, PwC noted the
following:


   •   The Federal Buildings Fund UDOs, DOs, and UFCOs were both
       overstated and understated, which resulted in significant year-end
       adjustments.
   •   Not all PBS contracts were entered into Pegasys within a timely manner.
   •   The Acquisition Services Fund, Motor Vehicles UFCO’s were understated
       FY 2006, FY 2007 and FY 2008, which resulted in year-end adjustments
       to the financial statements.


System Security

During the FY 2008 Financial Statement Audit, PwC identified security
weaknesses across multiple systems. Security weaknesses were reported
related to segregation of duties, account management, and activity monitoring.
Specifically, PwC found there were weak controls around segregation of user
and administrator duties for five systems; there were weak controls around
account management for nine systems; and for six systems there were weak
monitoring controls over application and system activity logs and violation reports
of user actions.

System Integration

The OMB Circular No. A-123 review performed by Cotton and Company, LLP
noted feeder system reconciliation problems between Pegasys and Comprizon.
The review determined there was a difference of $4.033 billion between
Comprizon and Pegasys. Also, the Mid-Atlantic Region Administrator’s
Assurance Statement, contained a qualified assurance statement relating to
internal controls. Specifically, the assurance statement noted the lack of
integration between Pegasys and Comprizon data systems. Additionally, PwC
reported that unfilled customer orders in Autochoice were not recorded in the
financial statements which resulted in approximately $123 million, $220 million,
and $159 million not being recorded in the financial statements, for FY 2006, FY
2007 and FY 2008, respectively.

Accounts Payables and Receivables

The National Capital Region’s Administrator (NCR) issued a qualified Assurance
Statement relating to internal controls. The assurance statement reported
ineffective internal controls over the management of accounts payables and
receivables.



                                          3
                  LIMITED AUDIT OF THE FISCAL YEAR 2008
                      FEDERAL MANAGERS’ FINANCIAL
                       INTEGRITY ACT SECTION 2 AND
                    SECTION 4 ASSURANCE STATEMENTS
                    REPORT NUMBER: A080118/A/F/F09003
                            NOVEMBER 14, 2008


Report Distribution                                          Copies

Acting Administrator (A)                                       3

Deputy Administrator (AD)                                      3

Inspector General (J)                                          1

Deputy Inspector General (JD)                                  1

Executive Assistant to the Inspector General (JD)              1

Special Assistant for Communications                           1
and Congressional Affairs (JD)

Acting Assistant Inspector General for Auditing (JA)           2

Acting Assistant Inspector General for Investigations (JI)     1

Acting Director, Audit Operations Staff (JAO)                  1

Director, Audit Follow-Up and Evaluation Branch (BEI)          1




                                          5
